                            NATIONAL SCIENCE FOUNDATION
                                 4201 Wilson Boulevard
                               ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL




Date:         March 3 1,2009

To:           Thomas N. Cooley, Director and chief ~inancialOfficer
              Office of Budget, Finance, & Award Management (ODlBFA)

              Dr. Larry H. Weber, Acting Office Director
              O.ffice of International Science and Engineering (OD/OISE)
               k      9      J      .     h
From:         Deborah H. Cureton
              Associate Inspector General for Audit


Subject:       NSF OIG Report Number 09- 1-007
               Audit of the U.S. Civilian Research and Development Foundation

        Attached is the final report on the audit of the U.S. Civilian Research & Development
Foundation's (CRDF) incurred costs to ensure that Federal funds were being used
appropriately. Specifically, the audit was conducted on CRDF award costs and administrative
controls for the fiscal year (FY) ended December 3 1,2006. CRDF's comments to the draft
report have been summarized after the recommendations for each audit finding and the
auditor's response has been provided to these comments. NSF indicated that it was unable to
provide comments on the audit findings and recommendations because there was insufficient
information at the time to render such a position without the benefit of first-hand interaction
with CRDF and cognizant NSF program staff. However, NSF did comment on the factual
accuracy of certain sections of the report. To the extent we considered appropriate, we made
revisions to the report to address both CRDF and NSF comments. The full text of both the
CRDF and NSF comments is attached as Appendices C and D, respectively, to the audit
report.

        The audit found,significant internal control weaknesses in CRDF's processes to
oversee its subrecipient's. CRDF's subrecipients are foreign grantees that received
approximately $6.7 million, or 71 percent, of total direct costs charged to the NSF award in
FY 2006. Specifically, we identified internal control weaknesses over approximately $3
million of Individual Financial Support (IFS) payments to foreign researchers and $2 million
in Institutional Building (IB) support payments to four grant-making organizations established
by CRDF. These weaknesses create substantial risk for potential fraudulent and unallowabk-
costs to be charped to the NSF awak

        Our audit also disclosed that CRDF incorrectly included unallowable and unallocable
costs in calculating its FY 2006 indirect cost rate, which resulted in $191,696 of indirect costs
being overcharged to the NSF grant. Specifically, CRDF charged public relations and
advertising costs as indirect costs, although they are unallowable per Federal cost principles.
In addition, CRDF improperly charged $7,230 of unallowable direct costs to the NSF award
for items such as alcohol, food, and party expenses for business meetings and marketing costs.

        We consider CRDF's internal control procedural weaknesses identified in the audit
findings to be significant, thus NSF needs to ensure appropriate corrective actions are taken to
implement the audit recommendations. We request that NSF provide its position regarding
each recommendation along with its proposed corrective' action plan within 120 days from the
date of this memorandum. Milestone dates for implementation should be provided as part of
corrective action plan. In accordance with OMB Circular A-50, Audit Followup, this timeline
will allow NSF and the OIG to work out any differences and reach mutual agreement on the
plan within the six month resolution period.

       We appreciate the cooperation that was extended to us during our review. If you have
any questions, please feel free to call me at 703-292-4985 or Michael Kuklok at 703-292-
4975.

Enclosure

       cc:     Dave Donnelly, Department of State
               Richard Miller, National Institute of Health
               James H. Lightbourne, Senior Advisor, ODIOIA
               Mary Santonastasso, Division Director, BFA/DIAS
               Karen Tiplady, Division Director, BFA/DGA
               Vanessa Richardson, Director of Operations and Analysis, OISE
U. S. Civilian Research & Development Foundation
                 Arlington, Virginia


Audit of CRDF’s Costs and Administrative Controls
           For the Fiscal Year Ended
               December 31, 2006



        National Science Foundation
        Office of Inspector General



              March 31, 2009
               OIG 09-1-007
EXECUTIVE SUMMARY

In 1995, the NSF established the U.S. Civilian Research and Development Foundation (CRDF)
as authorized by the Freedom Support Act. The Act provided for creating a nonprofit foundation
to provide: i) research and development opportunities to former Soviet Union weapons scientists
and engineers, ii) conversion of defense to civilian collaborative research and development
projects, and iii) assistance in the establishment of a market economy in newly independent
states of the former Soviet Union.

Although, NSF is responsible for overseeing and managing the CRDF award, other Federal
agencies primarily funded the award through NSF. CRDF also receives funding from
corporations and foundations. In response to a request from the NSF Director, the NSF Office of
Inspector General (OIG) initiated an audit in 2007 to determine whether CRDF had adequate
internal control policies and procedures to properly account for and manage Federal funds
provided by the NSF award, which cumulatively totaled $140 million since 1995. The audit also
determined whether $14.8 million of Fiscal Year (FY) 2006 costs claimed by CRDF were
allowable, allocable and reasonable in accordance with Federal grant policies.

The audit found that CRDF lacked adequate administrative and financial internal control policies
and procedures to ensure proper use of Federal funds. We noted several material internal control
weaknesses in CRDF’s monitoring of its individual principal investigators (PI) and subaward
organizations that if not addressed could increase the risk for fraud and unallowable costs being
charged to the NSF award. Since these costs represent approximately $6.7 million or 71 percent
of the direct costs CRDF claimed in FY 2006, it is imperative that CRDF have an effective
internal control oversight process in place. Specifically, CRDF did not:

   •   Consistently enforce internal control procedures related to Individual Financial Support
       (IFS) payments. IFS payments are provided to individual scientists in the former Soviet
       Union doing research under the CRDF program. Our review disclosed that about 40
       percent of the approximately $3 million in FY 2006 IFS payment requests were not
       adequately supported by labor effort reports.

   •   Establish and/or enforce controls over approximately $2 million of funds provided in
       FY 2006 to CRDF’s Institutional Building (IB) organizations. Specifically, required
       annual audits of these organizations were not consistently conducted, payments were
       made without reviewing supporting documentation, and the cost allocation methodology
       for administrative service contracts was subjective.

In addition, we identified internal controls weaknesses in CRDF’s indirect cost allocation
practices. As a result, CRDF charged $376,199 of questioned costs to its indirect cost accounts.
A breakdown of the questioned costs is as follows:

       •   $297,090 of proposed administrative labor charges and related fringe benefits and
           space occupancy costs for unallowable fundraising and public relations activities
           conducted by xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx;



                                                i
       •   $53,871 of unallowable charges for entertainment, alcohol, meals and travel
           expenses; and,

       •   $25,238 of direct costs for meetings and conferences incorrectly charged as indirect
           expenses.

The questioned costs identified above resulted in CRDF’s indirect rate for FY 2006 being
overstated by 2.04 percent and $191,696 of indirect costs being overcharged to the NSF award.
Through FY 2009, we estimate that $1,153,497 of funds could be put to better use government
wide by applying a lower indirect rate to all of CRDF’s Federal awards. This figure includes
$401,231 related to other Federal agencies’ awards. We also found that CRDF charged $7,230
in unallowable costs directly to the NSF award for alcohol, entertainment, and marketing and
public relation activities.

These weaknesses generally occurred because CRDF either failed to adequately enforce
established policies and procedures or in some instances had not established adequate controls.
Specific to the questioned indirect costs, CRDF had not established guidance and procedures to
ensure that its employees properly identify and record unallowable and unallocable activities.
Moreover, CRDF employees at the time of the audit, were not aware of Federal cost principles
and had not received training on these principles.

During the audit, CRDF management provided training on Federal cost principles to its staff.
Such training should be conducted on a periodic basis in order to institutionalize and impart
change in practice. Furthermore, we believe additional controls are needed to strengthen CRDF’s
grant management processes. Therefore we recommend NSF management direct CRDF to
establish and implement: i) stronger controls over grantee and subrecipient monitoring; ii)
written policies over the appropriate charging of allowable, unallocable, direct and indirect costs;
and, iii) periodic mandatory training courses for CRDF staff on grant charging practices. In
addition, we recommended NSF recover $198,926 for overcharges.

In response to the draft report, CRDF indicated that while it did not agree with the overall audit
conclusions or basic premise of the findings, it did acknowledge that additional subrecipient
monitoring controls were needed and has implemented corrective actions to address the report
recommendations. With regard to the questioned costs, CRDF disagreed and stated that such
costs were allowable because of either longstanding CRDF practice or inclusion of the costs in
its Business Plan submitted to NSF. However, the legal binding Funding Arrangement between
NSF and CRDF clearly states that grant costs allowability will be based on the Federal cost
principles used during our audit. Therefore, we continue to disagree with CRDF on the
allowability of these costs and reaffirm our audit conclusions and recommendations.

After incorporating CRDF comments, the draft report was issued to NSF requesting its
comments and management position on the audit findings and recommendations. In its response
to the draft report, NSF provided suggestions for report clarification, but stated that there was
insufficient information available for rendering its management’s position on the audit findings
and recommendations without interaction with CRDF and cognizant NSF program officials.




                                                 ii
                                TABLE OF CONTENTS

                                                                                       Page

EXECUTIVE SUMMARY                                                                        i


INTRODUCTION
Background                                                                               1
Objectives, Scope, and Methodology                                                       2


FINDINGS AND RECOMMENDATIONS
I. CRDF Needs to Significantly Improve Its Oversight of Subrecipient Funds               4
II. CRDF Lacks a Full Understanding of Cost Principles Related to Identification and     9
   Segregation of Unallowable and Unallocable Costs


APPENDICES
Appendix A: Schedule of Indirect Costs with Explanatory Notes                            14
Appendix B: Schedule of Direct Costs with Explanatory Notes                              22
Appendix C: CRDF Comments to Draft Report                                                23

Appendix D: NSF Comments to the Draft Report                                             36



ACRONYMS
CEO    Chief Executive Officer
CRDF   Civilian Research Development Foundation
FSA    Freedom Support Act
FY     Fiscal Year
IB     Institutional Building
IFS    Individual Financial Support
NSF    National Science Foundation
OIG    Office of Inspector General
OMB    U. S. Office of Management and Budget
PI     Principal Investigator
INTRODUCTION

Background

Pursuant to the “Freedom Support Act (FSA) of 1992,” NSF established the U.S. Civilian
Research and Development Foundation (CRDF) in 1995. It was chartered as a private nonprofit
entity to promote and support opportunities for collaborative research and development projects
for peaceful purposes between U.S. researchers and scientists in the newly independent States of
the former Soviet Union. CRDF is based in Arlington, Virginia, and it has foreign offices in
Russia, Ukraine and Kazakhstan. A Board, appointed by NSF’s Director, oversees CRDF’s
activities and sets direction for the organization.

The NSF award to CRDF was first made on September 29, 1995. As of May 1, 2008, the award
to CRDF totaled $140 million, of which 69 percent has been provided by the Department of
State, 11 percent has been provided by NSF, and the remaining amount provided from five other
Federal agencies and a private foundation. The major Federal contributors in 2006 included the
Department of State providing $8 million, NSF contributing $1 million, and the National
Institutes of Health contributing over $750,000 to CRDF. In addition to the above funding being
provided under the NSF award, CRDF receives additional funds under private grants from non-
Federal sources and performs contract work for both the private and Federal sectors. Currently,
the NSF award makes up the largest source of funds to CRDF.

Under the Individual Financial Support (IFS) program, CRDF funded individual foreign grantees
and sub-recipients. This program constitutes CRDF’s largest expense category. In 2006,
CRDF’s IFS program paid almost $3 million (31 percent) of its 2006 direct costs to individuals
and institutions that employed scientists and researchers in the former Soviet Union countries to
supplement their salaries and to encourage these individuals to engage in non-weapons related
research. In addition, Institutional Building support payments made to foreign grantees and sub-
recipients comprise CRDF’s second largest expense category totaling $2 million (21 percent) of
its FY 2006 direct costs. The purpose of the Institutional Building program is to help build peer
review, grant making organizations in the newly independent States of the former Soviet Union,
with an infrastructure similar to NSF. To this end, CRDF helped establish four Institutional
Building organizations in Armenia, Azerbaijan, Georgia, and Moldova.

CRDF recently began expanding its grant support programs to promote the collaboration of
scientific projects not only in the former Soviet Union, but also in the Middle East and North
Africa. As such, CRDF is now receiving and managing grants for other Federal agencies as well
as other private organizations. The additional services that CRDF is providing to the other
institutions include purchasing, shipping and customs assistance for equipment, travel assistance,
accounting support, oversight of research projects, logistical support, and contract and
intellectual property guidance. With the increase in non-FSA related grant activities, the need
for reliable cost accounting systems to properly segregate and track expenses by funding sources
becomes even more important for CRDF. NSF requested the OIG to conduct an audit of CRDF
operations due to the large government grant amounts awarded to CRDF since 1995 and because
CRDF has not been audited by the OIG since its inception.




                                                1
Objectives, Scope, and Methodology

Audit Objective

The purpose of the audit was to determine whether CRDF had adequate internal control policies
and procedures to properly account for and manage funds provided by Federal agencies through
NSF. The audit also included determining whether $14.8 million of FY 2006 costs claimed on
NSF awards by CRDF were allowable, allocable and reasonable in accordance with Federal cost
principles and award terms and conditions.

Scope and Methodology

The audit was performed from May 25, 2007 to May 15, 2008 at CRDF and NSF in Arlington,
Virginia. The audit covered FY 2006 CRDF expenditures, which covered the period
January 1, 2006 through December 31, 2006. To accomplish the audit objective, we reviewed
the adequacy of CRDF internal control procedures and accounting practices for charging costs to
Federal awards to determine whether they have been implemented, are functioning as prescribed,
and are being effectively monitored internally by CRDF. We reviewed CRDF’s accounting
records and source documentation to ensure that grant expenditures were allowable, allocable,
and reasonable. Specifically, we:

      •    Obtained and reviewed laws, regulations, policies and procedures relevant to CRDF to
           gain an understanding of CRDF and its operations;

      •    Interviewed key CRDF officials, including the Chief Executive Officer (CEO), Chief
           Financial Officer, Director of Global Operations, and Director of Development to gain an
           understanding of CRDF’s operations. We also interviewed officials from NSF’s Office of
           International Science and Engineering, Cost Analysis and Audit Resolution Branch, and
           Division of Grants and Agreements to gain an understanding of NSF’s requirements for
           the award provided to CRDF;

      •    Interviewed officials from the U.S. Department of State and National Institutes of Health
           to seek an understanding about any of their concerns regarding CRDF operations;

      •    Reviewed recent single audits conducted by CRDF’s external auditors and CRDF’s own
           site visit reports to determine whether any issues should be incorporated into our audit;

      •    Reviewed CRDF timekeeping procedures to determine if they provided reasonable
           assurance of accurate recording, distribution, and payment of labor. We judgmentally
           selected timesheets for two pay periods for three employees who performed direct
           activities, two employees who performed indirect activities, and three employees who
           performed award administration1 activities to determine if their labor hours were
           accurately recorded, and subjected to supervisory review in accordance with CRDF’s
           policy;

1
    CRDF has a separate award administration rate.



                                                     2
   •   Reviewed salaries of CRDF’s xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx to
       determine whether CRDF was properly charging allowable type activities and allocating
       those costs to the appropriate direct and indirect accounts. To test the appropriateness of
       the allocation of the xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx salaries, we reviewed
       position descriptions; analyzed survey questionnaires for employee positions completed
       in 2006, and interviewed selected employees in these positions to obtain an overview of
       their activities. We used the data gathered to estimate the labor hours individual
       employees expended on unallowable type activities and related labor costs associated
       with these activities;

   •   Performed a complete nomenclature review of journal entries to determine if there were
       unusual entries that required further review. We also judgmentally selected high dollar
       entries and high risk accounts and examined the source documents such as vendor
       invoices, payment receipts, purchase orders, trip reports, and timesheets supporting the
       amounts and disclosures in the accounting records. We tested approximately $404
       thousand out of $9.4 million in total direct costs incurred and charged to the award in
       FY 2006, and $879,477 out of $xxxxxxxxx of total indirect costs charged to the indirect
       cost pool in FY 2006. Because we used a non-statistical sampling plan, questioned costs
       in this report may not represent total costs that may have been questioned had all the
       reported FY 2006 expenditures been tested;

   •   Judgmentally selected and reviewed 30 IFS payments to determine whether established
       policies and procedures and requirements in the grant agreements were followed and
       claimed costs were supported by adequate documentation;

   •   Determined reasonableness of CRDF’s methodology for allocating administrative support
       contracts to Federal versus non-Federal projects. We selected two contract billings from
       each of the four IB organizations and evaluated the reasonableness of the cost allocation
       methodology and basis for charges to the NSF award; and,

   •   Reviewed the methodology CRDF used to calculate its FY 2006 indirect cost rates,
       including indirect, administrative, fringe benefits, and occupancy rates to determine their
       reasonableness. Finally, we reviewed all cost categories in the indirect cost and
       administrative cost pools, as well as all costs in the fringe benefits and occupancy cost
       pools for Virginia, Moscow and Kyiv, in order to identify potential unallowable costs or
       high risk items requiring further review and testing.

We conducted our audit in accordance with the Comptroller General’s government auditing
Standards, July 2007. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions. Because our review was limited to the scope
and methodology described above, it may not necessarily disclose all internal control
deficiencies that may have existed at the time of the audit.




                                                3
Findings and Recommendations

I. CRDF Needs to Significantly Improve Its Oversight of Subrecipient Funds

We found significant internal control weaknesses in CRDF’s processes to oversee its
subrecipients. CRDF’s subrecipients are foreign grantees that received approximately $6.7
million, or 71 percent, of total direct costs charged to the NSF award in FY 2006. Specifically,
we identified internal control weaknesses over approximately $3 million of Individual Financial
Support (IFS) payments and $2 million in Institutional Building (IB) support. These weaknesses
create substantial risk to CRDF and NSF for potential fraudulent and unallowable costs to be
charged to the NSF award.

1. Incomplete or Missing Labor Effort Reports to Support IFS Salary Charges

CRDF award agreements with its subrecipients include a requirement for the Principal
Investigators (PIs) to review and approve labor effort reports for all staff working on the
subrecipient awards, and to make those records available to CRDF upon request for its review.
In turn, CRDF, as the primary grant recipient, is responsible for overseeing and monitoring its
subrecipients to ensure compliance with this effort reporting requirement and the propriety of
subrecipient labor effort charged to NSF awards.

However, our review disclosed significant weaknesses over CRDF’s processes for monitoring
the approval of effort reports supporting IFS payments. For 13 (43 percent) of 30 sampled IFS
transactions listed in the general ledger, we found that effort reports to support the payments
were either not properly completed or unavailable. Specifically, three PIs prepared and dated
their effort reports after we requested the effort reports during the course of our audit, which was
one and a half years after the work was performed. Another five effort reports were not dated,
and one was not signed or dated. Therefore, it was unclear whether these effort reports were
prepared at the time the work was actually performed or who prepared them. Moreover, four
payments had no supporting effort reports and CRDF could not locate the responsible PIs to
obtain the missing reports.

CRDF found similar problems with subrecipient labor effort. CRDF site visits conducted during
a two year period, found that approximately 40 percent of grantees did not maintain an effort
reporting system as required. If this rate of missing effort reports exists throughout the IFS
program, as much as $1.2 million of the $3 million in FY 2006 IFS salary payments may be at
risk.

Although CRDF had established requirements for subrecipient effort reporting, it did not
consistently enforce those requirements. Subrecipients received their IFS payments regardless of
whether or not they completed timesheets or effort reports. CRDF management indicated that
the concept of preparing labor effort reports by foreign grantees was new and efforts to train
foreign grantees and gain their acceptance of this requirement had been slow. While cultural




                                                 4
differences at the onset of the program are understandable, the IFS program has been in existence
for more than 10 years.

2. Inadequate Oversight of IB Organization Costs

We also identified three significant weaknesses in CRDF’s oversight of its four IB organizations
which receive approximately $2 million annually in NSF funds. CRDF did not ensure that:
i) required annual audits of IB organizations were consistently conducted, ii) staff reviewed
supporting documentation from its IB organizations before making payments, and iii) a
reasonable basis was established for allocating the costs of its administrative service contracts to
the NSF award. Further explanation of each of these weaknesses follows.

   a. Required Annual Audits for IB Organizations Not Conducted. CRDF audit guidelines
      require annual audited financial statements. The policy also requires an audit of all
      grants at an institution for the last two years if unaudited grant funds total $50,000 or
      more during the life of the organization. The policy requires independent audit reports to
      cover, at a minimum: i) a financial statement that presents the IB organization’s revenues,
      expenses, and the cash balance of funds provided by CRDF; and ii) a report on the IB
      organization’s compliance with the project grant agreement and applicable laws and
      regulations. This report should identify material instances of noncompliance, the
      amounts questioned as a result of the noncompliance, and material weaknesses in the
      control system that contributed to the noncompliance.

       CRDF did not ensure that its IB organizations have met the annual audit requirement.
       Although all four IB organizations were required to have an annual audit, none was
       conducted or completed in accordance with established CRDF guidelines. For example,
       the initial audit report for the Azerbaijan IB organization that included FYs 2002 through
       2004 was not issued until May 1, 2006. Similarly, the Moldova IB organization did not
       conduct the required annual financial audit in FY 2004. Rather, they conducted an audit
       of FYs 2004 and 2005 and issued the audit report on July 22, 2006. At the time of our
       review, the FY 2006 audit for Moldova had not been completed. Furthermore, of the
       audits that were completed, the scope was limited to a review of financial statements and
       did not include assessing the organizations’ compliance with grant terms and conditions
       of the CRDF award agreement or the adequacy of their internal controls over compliance.

       Timely and complete audits are critical to the identification and correction of material
       internal control weaknesses that can lead to unallowable costs and potential fraud, waste
       and abuse.

   b. Supporting Documentation Not Reviewed Before Making IB Payments. CRDF’s
      subaward agreements require that IB organizations submit receipts and invoices to
      support their requests for reimbursement of award expenditures. Moreover, CRDF, in
      accordance with OMB Circular A-110, Uniform Administrative Requirements for Grants
      and Other Agreements with Institutions of Higher Education, Hospitals and Other Non-
      Profit Organizations, is required to have written procedures to help ensure that costs
      charged to the NSF award for the IB organizations are allowable, allocable and




                                                 5
       reasonable in accordance with cost principles contained in OMB Circular A-122, Cost
       Principles for Non-Profit Organizations.

       However, CRDF did not have established procedures to ensure that supporting
       documents were consistently reviewed before making IB payments. During the audit,
       CRDF officials stated that the individual who performed this oversight function left
       CRDF employment and that they were not diligent in requesting and reviewing
       supporting documentation. In fact, management could not provide documentary evidence
       that would support any reviews ever occurred in FY 2006. Further, CRDF’s own site
       visits to the IB organizations did not include reviewing actual expenditures charged to the
       grant to ensure their propriety and allowability. Finally, CRDF did not assess the
       adequacy of the subrecipients’ internal controls over award expenditures to ensure the IB
       organizations grant accounting and management controls were adequate. Instead,
       CRDF’s site visits only focused on whether the IB organizations and their PIs were
       achieving the scientific program goals of the awards.

   c. Costs for IB Administrative Contracts Allocated without Adequate Support. CRDF did
      not have a reasonable basis for allocating its administrative service contract costs to its
      individual IB awards. Administrative contracts were awarded to the IB organizations to
      provide general administrative support services for CRDF’s grant and project
      administration activities, such as logistics, dissemination of non-IB grantee payment
      requests, local currency handling, and dissemination of program information in the local
      scientific communities in Armenia, Azerbaijan, Georgia, and Moldova. OMB Circular A-
      122 requires that costs be allocated to a particular cost objective in reasonable proportion
      to the relative benefits received. However, CRDF only requested the IB organizations to
      submit monthly progress reports and the payment authorization for the total
      administrative services costs was subjectively allocated to its various projects and
      awards. For example, while contract employees work on multiple projects, the amount of
      time spent on each project is not recorded separately for costing purposes. As a result,
      CRDF cannot appropriately allocate costs charged to the Federal awards. The absence of
      cost accounting systems to segregate the administrative services costs by award and
      provide verifiable supporting documentation, such as effort reports, may result in an
      inequitable apportionment of these contract costs to the NSF award. There is also a risk
      of duplicate charging of the same administrative costs to more than one Federal award.

These internal control weaknesses occurred because CRDF did not have a system in place to
enforce its annual audit requirement for the IB organizations. It also did not provide the
resources necessary to consistently review and validate the costs for payment or ensure proper
allocation to the NSF award. In addition, CRDF did not provide proper subrecipient oversight
by ensuring that the IB organizations had implemented adequate accounting systems that could
segregate and accumulate costs by project or award, or equitably allocate costs to awards based
on the benefits derived. As a result of these weaknesses, CRDF cannot fully ensure that $2
million of annual subaward costs for IB organizations’ activities benefited the award to which
they were charged, or were spent on valid and allowable award costs.




                                                6
Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support require CRDF to:

1.1    Fully implement and enforce a labor effort reporting system for IFS subrecipients and
       properly validate effort reports for completeness, accuracy and appropriateness prior to
       disbursing IFS payments.

1.2    Enforce its established annual audit requirement of all IB organizations, and adequately
       monitor these subawardees to ensure compliance.

1.3    Develop and implement a policy to obtain and review all documents supporting IB
       payment requests prior to making any disbursements for reasonableness, allowability and
       allocability. CRDF’s review process should also include regular financial site visits to
       ensure the adequacy of IB organizations’ grant accounting and management practices.

1.4    Develop an effective and documented methodology for allocating costs incurred by IB
       organizations for administrative service contracts to the Federal award in proportion to the
       benefits received.

CRDF Comments:

CRDF did not agree with the overall audit conclusions regarding oversight of subrecipient
funding and the amount of funding that was identified as being at risk. However, CRDF did
acknowledge that additional subrecipient monitoring controls were needed and stated that it had
already implemented corrective actions that meet the intent of recommendations 1.1 through 1.4.
Specifically, management stated:

      1. The IFS system did not lack payment controls and took exception to our estimation of
         $1.2 million in IFS payments being at risk based on our sample. Management did
         however agree that controls were not consistently applied and monitoring needed
         improvement. Management stated they have implemented a number of controls and are
         in the process of testing a new system to improve the monitoring of subrecipients. These
         include: (i) implementation of daily timesheet system by project participants, and must
         be reviewed and approved by the responsible PI: and, (ii) CRDF project managers
         conducting regular desk reviews on a monthly basis to reconcile timesheets to payment
         requests submitted.
      2. They recognized in 2004 that they needed to enhance controls to ensure annual audits
         were conducted at IB organizations, but felt they had instituted some compensating
         controls. Again, management stated they have taken numerous steps to improve the
         current system. CRDF also disagreed with our conclusion that $2 million in IB
         subaward costs were at risk under the NSF award.
      3. The wording for the cost allocation process was misleading and that part of the
         breakdown was due to the individual in charge of this process not maintaining adequate




                                                 7
        records. Nevertheless, CRDF acknowledged that a more objective methodology for
        allocating administrative contract costs to its various awards and projects was
        appropriate and have instituted procedures to collect the necessary data.

OIG Response:

We have reviewed CRDF’s comments and made changes to the report where appropriate for
clarification and accuracy. We disagree with CRDF’s comment that our overall conclusion
indicates an absence of controls. Rather, the conclusion states there were significant internal
control weaknesses primarily due to the lack of CRDF enforcement of existing policies and
procedures and subrecipient monitoring. CRDF acknowledges a lack of consistency in the
application of controls in their comments to the report. Thus, we stand by our report.
Regarding the dollars at risk, the report does not state that funds were misspent or used
inappropriately, but rather the risks for the potential misuse of these funds increases when there
is a weak internal control system in place. As stated in the report, the dollars at risk were based
on estimates from audit results and in some instances corroborated by prior CRDF reviews.
Thus, we believe the dollars at risk are fairly stated. Finally, we believe CRDF’s proposed
actions will be responsive to the recommendations when fully implemented.

NSF Comments:

NSF only provided minor comments or suggestions on clarification of the the audit finding.
Management stated that there was insufficient information available for rendering a NSF position
on the audit finding and recommendations at this time.

OIG Response:

We considered NSF comments and have incorporated appropriate suggestions for report
clarification. However, after NSF has had the opportunity to discuss and obtain additional
information from CRDF and cognizant NSF program staff, as previously requested, management
needs to provide a formal position on the audit finding and its agreement or disagreement with
each audit recommendation.




                                                8
II. CRDF Lacks a Full Understanding of Cost Principles Related to Identification and
    Segregation of Unallowable and Unallocable Costs

OMB Circular A-122 states that non-profit organizations receiving Federal grant funds may only
claim costs that are allowable, allocable and reasonable. Specifically, the Circular stipulates that
advertising and public relations costs, fundraising, social club memberships, entertainment,
alcohol and first-class airfares, are generally unallowable as indirect or direct costs. Also, when
calculating indirect costs, the grantee must include the cost of activities performed primarily as a
service to members, clients, or the general public when significant and necessary to the
organization’s mission in the direct cost pool for the purposes of calculating its indirect cost rate
whether or not these costs are allowable.

However, our audit disclosed that CRDF incorrectly included unallowable and unallocable costs
in calculating its indirect rate for FY 2006. In addition, CRDF charged unallowable costs directly
to the NSF award. Specifically, CRDF charged public relations and advertising costs as indirect
costs, although they are unallowable per OMB Circular A-122, Attachment B. The xxxxxxxxxx
xxxxxxxxxxxxxxxxx staff stated they frequently briefed congressional staffers and other
intermediaries of the foreign relations committees on CRDF grant efforts. Under Attachment B,
paragraph (1)(f)(4) of OMB Circular A-122, costs of public relations designed solely to promote
the organization are unallowable. According to CRDF, these meetings were all initiated by
CRDF and were not in response to specific requests for testimony or information from a
congressional committee. CRDF also provided the auditors with a legal opinion on “lobbying
costs,” versus public relations. Regardless, CRDF also does not meet the OMB Circular A-122,
Attachment B, paragraph 25(b)(1) exception to the general prohibition for charging lobbying
costs which states that costs associated with "providing a technical and factual presentation of
information on a topic directly related to the performance of a grant, contract or other agreement
through hearing, testimony, statements or letters to the Congress or a State legislature, or
subdivision, member, or cognizant staff member thereof, must be in response to a documented
request [emphasis added] (including a Congressional Record notice requesting testimony or
statements for the record at a regularly scheduled hearing) made by the recipient member,
legislative body or subdivision, or a cognizant staff member thereof."

In fact, the CRDF Business Development Group’s primary function is promoting and marketing
CRDF to its funding stakeholders. For example, position descriptions for CRDF Business
Development Group Senior Staff Associates state that their duties include identifying
opportunities to broaden CRDF’s base of support through attending and tracking congressional
hearings, meeting with congressional staff members to educate them about CRDF’s capabilities
and activities, and organizing or participating in events that offer CRDF an opportunity to
showcase its successes. In addition, they “act on opportunities to utilize CRDF’s grants and
other activities within individual U.S. states and districts to garner support for CRDF among
congressional members and staff.”

For FY 2006, we estimate that CRDF’s CEO and the Business Development Group incorrectly
charged the indirect cost pool $xxxxxxxx for indirect salaries and associated fringe benefits and
occupancy costs to carry out unallowable fundraising, public relations and promotional activities.




                                                 9
This estimate reflects the percentage of time that CRDF employees self-reported as being spent
on public relations, marketing and outreach activities.2

In addition, we found that CRDF incorrectly claimed $53,871 of other indirect costs that were
not allowable under Federal and NSF award requirements. Some examples of unallowable
charges include:

    •   $10,121 for entertainment and alcoholic beverage costs for a holiday party on a dinner
        cruise;
    •   $4,575 for a farewell cocktail reception for the former CEO;
    •   $10,022 in additional costs for first and business class airfares; and,
    •   $3,056 for a dinner organized by the U.S.-Russian Business Council in San Francisco for
        the governor of St. Petersburg, Russia.

CRDF also incorrectly charged $25,238 of direct costs as indirect costs. These costs included
subscriptions, meetings, and conferences that directly supported CRDF’s research mission.
Therefore, these costs are allowable as direct costs and should not have been allocated through
the indirect cost rate.

Finally, CRDF charged certain unallowable expenses directly to the NSF award. These include
$5,563 in alcohol, food and party expenses charged to business meetings and $1,667 for
marketing.

As a result of charging these unallowable and unallocable costs to the award, CRDF’s indirect
cost rate charged to NSF for FY 2006 is overstated. Adjusting for these inaccuracies, we
calculated CRDF indirect cost rate to be xxxxxx percent rather than the xxxxx percent claimed in
FY 2006. Accordingly, we are questioning $191,696 in overstated indirect costs and $7,230 of
unallowable direct costs charged to the NSF award for FY 2006. This methodology of
calculating a lower indirect cost rate should significantly reduce claimed indirect costs on future
NSF and other Federal agency awards. In addition to the questioned costs above, we estimate
that approximately $1,153,497 of federal funds could be put to better use from applying lower
indirect rates in FY 2005 – 2009.3 This figure includes $401,231 related to other Federal
agencies’ FY 2005 - 2009 awards. This reduction in costs could be used to fund additional
grants. Differences in the amounts proposed compared to the audit determined amounts along
with detailed explanations on the costs we questioned and the impact on the indirect cost rate are
summarized in Appendices A and B.

Although CRDF has been receiving Federal funds since its inception, neither CRDF
management nor its staff were fully aware of the Federal OMB and grant requirements and thus
had not developed written procedures or provided training to employees responsible for
classifying and charging award costs. Specifically, CRDF did not have guidance and procedures
to help employees properly identify allowable and unallowable activities. Additionally, we

2
  This information came from position description questionnaire CRDF employees completed in a survey conducted
in FY 2006 by a consulting firm hired by CRDF.
3
  At the time of audit, the State Department was finalizing CRDF’s indirect cost rate for FY 2005. The FY 2004
indirect rate is already negotiated.



                                                     10
determined that CRDF had not trained their employees in this area. For example, CRDF
officials believed that because Congress approved the legislation creating CRDF and approved
annual funds for its operations, their grant from NSF covered costs of providing regular briefings
to Congress. They did not understand that Federal cost principles governing the NSF award
considers such briefings as unallowable promotional and public relations activities. As such, the
briefings do not support the research purpose of the NSF award and the costs are not allowable
charges to the grant.

Since our audit, CRDF has appropriately moved to address this weakness by providing training
to all staff concerning the allowability and allocability of costs and charging to the appropriate
accounts.

Recommendations

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support direct CRDF to:

2.1 Establish written accounting policies and procedures for calculating and charging indirect
    cost rates that ensure only reasonable, allowable and allocable costs are charged to Federal
    awards as required by OMB Circulars A-110 and A-122 standards for financial management
    systems. The policies and procedures should specifically direct staff not to include costs for
    promotional and marketing activities (such as briefings to Congress) in the indirect cost rates.

2.2 Train staff on the accurate classification and proper allocation of costs as direct or indirect,
    and allowable versus unallowable. The training should be provided to all new hires with
    periodic refresher courses provided to existing employees.

2.3 Require supervisors to review timesheets to ensure that unallowable activities are charged to
    the appropriate cost account.

We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support:

2.4 Work with CRDF to correct the indirect cost rate for other years prior to and after FY 2006
    to remove and/or reclassify the types of unallowable and unallocable costs identified in the
    audit and seek recovery of all improper NSF charges.

2.5 Resolve the $191,696 in unallowable indirect costs and $7,230 in direct costs improperly
     charged to the NSF award in FY 2006.



CRDF Response:

CRDF disagreed with the basic premise of this finding. It stated that, rather than CRDF lacking
an understanding of OMB Circulars A-110 and A-122, CRDF has a fundamental disagreement




                                                11
with the OIG’s interpretation of the regulations. In particular, CRDF disagreed with our
determination that briefing of members of Congress and their staff are unallowable public
relations costs. CRDF stated NSF requested to update the Business Plan in 2005 and that Sec.
III.B of the NSF Funding Arrangement explicitly calls for CRDF to conduct its activities in
accordance with the Business Plan which calls for advancing its mission through various means
including communicating its successes to external stakeholders and Congressional members and
staff among others. Thus, CRDF disagrees with the audit conclusion that the labor charges for
txxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx personnel were, in part, unallowable public relations type
activities. CRDF also believes the basis on which we considered the costs unallowable was
flawed. Simply relying on position description questionnaires provided to CRDF’s independent
consultant as a basis for estimating potentially unallowable public relations costs is too
unreliable according to CRDF. Based on CRDF’s own post hoc determinations, which included
two training sessions on Federal cost principles and its 2006 revised position description
questionnaires, the amount of unallowable costs CRDF believes were charged to the Federal
award were $13,857 instead of the $173,910 the audit identified (the CRDF number did not
include the associated fringe benefits and occupancy costs). Also, CRDF only partially agreed
with the $79,109 of other questioned costs in the report because they disagreed with the audit
conclusion and in some cases because charging these costs were long standing CRDF practices
which NSF had never questioned.

OIG Response:

We do not consider CRDF’s comments responsive to the finding. We stand by the facts and
conclusions presented in the report, as discussed below:

    1. CRDF stated it had a fundamental disagreement with the OIG concerning the Federal
       cost principles contained in the OMB Circulars. However, CRDF first trained its staff
       on these cost principles after the auditors brought questions of cost allowability to the
       attention of CRDF during the audit. CRDF did not argue the presentation of this fact in
       the report and in effect affirmed it through their comments.
    2. CRDF further states NSF asked it to update its Business Plan in 2005. Based on the
       cover memorandum to NSF, dated May 9, 2005, it was CRDF’s initiative to update the
       Business Plan instead of NSF’s. According to CRDF, the funding arrangement
       explicitly calls for CRDF to conduct its activities in accordance with the Business Plan.
       The Business Plan does call for advancing its mission through various means including
       communicating its successes to external stakeholders and Congressional members and
       staff, among others. However, the Business Plan does not address specific funding
       issues and financial responsibility. Rather CRDF lists this issue as an “opportunity” to
       communicate CRDF’s successes. We recognize that CRDF has both Federal and non-
       Federal funding and some of these expenses may be allowable for non-Federal funding,
       but are not allowed to be charged to Federal funding either, directly or indirectly.
       Further, the 1996 Funding Arrangement, signed by NSF and CRDF, states the
       allowability of costs shall be determined in accordance with OMB Circular A-122 cost
       principles and that funds for the discretionary account (unallowable costs) will come
       from the interest earned by CRDF investments, except for the initial year of operation.




                                              12
       Finally, neither NSF nor the State Department (the primary funding agency) were aware
       of any documentation overturning the Funding Arrangement.
    3. In addition to CRDF’s disagreement on our interpretation of Federal cost principles, it
       disagreed with our conclusion and analysis of the xxxxxxxxxxxxxxxxxxxxxxxxx labor
       allocation costs. Our analysis and conclusion was not based solely on the independent
       position description questionnaires, as indicated by CRDF. We also interviewed several
       CRDF personnel including xxxxxxx who confirmed the reasonableness of the marketing
       and public relations level of effort reported in the questionnaires. Since it was CRDF
       that hired the consultant to collect this information, we consider this information
       objective and reliable. Only after CRDF learned, from our audit, about the Federal
       prohibition on charging some public relations costs to Federal awards, did it make
       known any concerns about the reliability of its consultant’s work. Therefore we do not
       consider CRDF’s post hoc review to be objective.
    4. CRDF also partially disagreed with the questioned costs for other charges in part because
       it has been a long standing practice of CRDF to charge these costs and which NSF has
       never challenged. However, as with CRDF’s Business Plan, long standing practices do
       not override Federal cost principles and requirements. Therefore, we stand by the
       questioned amounts in the report.


NSF Comments:

NSF management stated that there was insufficient information available for rendering an
opinion on the audit findings and recommendations at this time, but provided minor suggestions
for improving clarity in the audit finding and recommendations.

OIG Response:

Based on NSF’s comments, we have clarified our audit recommendations by combining two
recommendations and revising the wording of a third recommendation. Specifically, in lieu of
recommending additional incurred cost audits of NSF grants to CRDF, we have clarified
recommendation 2.4 to ensure that NSF will be reimbursed for any improper grant charges for
other years prior to and after FY 2006. Further, we clarified a third recommendation to seek
recovery of both questioned direct and indirect FY 2006 grant costs.

However, as previously stated, NSF needs to provide its formal management position on the
audit findings and its agreement or disagreement with each audit recommendation after it has had
the opportunity to discuss and obtain additional information from CRDF and cognizant NSF
program staff.




                                              13
                                                                                     APPENDIX A




                CIVILIAN RESEARCH & DEVELOPMENT FOUNDATION
                 National Science Foundation Award Number OISE – 9531011
                      Audit of Incurred Costs and Administrative Controls
                             January 1, 2006 – December 31, 2006

                                     Schedule of Indirect Costs

                                          Cost          QUESTIONED      Adjusted
      Cost Category                      Claimed           Costs          Cost        NOTES

      Admin Labor- VA                                       173,910                          1
      Admin labor - Moscow
      Admin labor - Kyiv
      Temporary Help
      Parking/Local Transport
      Business Meetings & Events                             32,155                          2
      Dues & Subscriptions                                    8,365                          3
      DataBase
      Purchase Equipment
      Purchase Furniture
      Equipment Rental
      Maintenance & Repair
      Telephone
      Internet Services
      Accounting, audit, Tax
      Legal
      Payroll
      Other
      Training
      Business Insurance - D&O
      Other Taxes, Miscellaneous
      Bank Cahrges
      Bank Monthly Fees
      Marketing                                              17,211                          4
      Rent
      Office Supplies
      Printing & Reproduction
      Postage & Deliveries
      Consulting Services                                     1,235                          5
      Computer Services
      Travel - Board
      Travel - Staff                                         10,022                          6
      Travel - Advis
      Miscellaneous                                          10,121                          7
      Currency Exchange Gain/Loss
      Fringe Allocation                                      86,068                          8
      Occupancy Allocation                                   37,112                          9
       Total                                                376,199

      Allocation Base:                                     (346,285)                        10

      Overhead Rate *


* Base for the indirect rate is total direct costs. Slight arithmetic differences may exist due to
computer rounding.




                                                   14
                                                                            APPENDIX A



Note: The accompanying notes to explain adjustments and eliminations are an integral part of
this financial schedule.


Explanatory Notes for Questioned indirect costs:

1. Administrative Labor Costs

The audit of CRDF indirect labor charges disclosed that the CEO and Development Group staff
frequently briefed congressional staffers and other intermediaries of the foreign relations
committees on CRDF award efforts and engaged in public relations, fundraising, marketing, and
promotional activities.

We tested the allocation of Development Group employees, the CEO and former CEO’s (retired
in April 2006) salaries to determine whether these employees allocated their time appropriately
to the proper cost category. We focused on unallowable activities like fundraising, public
relations, and marketing to determine how employees allocated the time spent on these activities.
We found that many of employees did not allocate, or under-allocated fundraising, public
relations, and marketing type activities to the unallowable accounts, and instead, charged these
unallowable activities to the indirect pool. Table 1 lists a summary of testing of unallowable
indirect salaries for the development group and CEO.

Table 1: Unallowable Indirect Salaries for xxxxxxxxxx xxxxxxxxxx xxxxxxxxxx xxxxxxxxxx
                                   % Charged               %        Additional %       Total $ to
                                   by CRDF to         Unallowable   to adjust into    adjust into
   Position                        unallowable         per audit     unallowable     unallowable
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxxxxx             25%           Xxxxxxx          xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             25%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             25%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             75%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             60%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      Xxxxxxx             50%           Xxxxxxx         Xxxxxxxxxx
   Xxxxxxxxxxxxxxxxxxxxxxxxxxxx      xxxxxxx             40%           Xxxxxxx         Xxxxxxxxxx
   TOTAL                                                                                xxxxxxxxxx




                                                 15
                                                                                          APPENDIX A



2. Business Meeting & Event:

We questioned $32,155 of the proposed business meeting and event expenses because they were
either unallowable ($9,917) per OMB Circular A-122 cost principles or unallocable to the
indirect costs pool because costs ($22,239) were related specifically to the NSF award and did
not benefit all projects. A breakdown and explanation of the questioned costs is shown below:


Costs Questioned             Description

Unallowable
$3,056*                      The questioned amount is the cost of meals and alcohol at a US-Russian
                             Business Council dinner party in honor of the Governor of St. Petersburg
                             in Russia. CRDF considers the event essential for business development.
                             However, under OMB Circular A-122 cost principles, this type of
                             amusement or social event is an unallowable entertainment expense.

$695*                        The questioned business meeting cost comprise of $580 for groceries, and
                             $115 for flowers, which are considered unallowable entertainment costs,
                             because they were not necessary to conduct the business meetings.

$946*                        The questioned amount is the cost of alcohol at a CRDF Board meeting
                             held on May 4, 2006. Costs of alcohol are expressly unallowable per
                             Federal cost principles.

$3,470                       The questioned amount is the cost for promotional items such as insulated
                             mugs and luggage tags labeled by CRDF as “George Brown Award and
                             Event Giveaway.” Of the total expense of $5,721 for the items, CRDF
                             booked $2,251 as unallowable and $3,470 as allowable. However, we
                             consider the entire cost of $5,721 as unallowable because under OMB
                             Circular A-122, costs of promotional items and memorabilia, including
                             models, gifts, and souvenirs are unallowable advertising and public
                             relations costs. Therefore, we have questioned the difference ($5,721 -
                             $2,251) accordingly.

$1,750                       The questioned amount was the rental cost of exhibit booth space at an
                             international technical conference in Dallas, Texas that was recorded as
                             business meeting expense. However, per OMB Circular A-122, the cost
                             of displays, demonstrations and exhibits are unallowable advertising and
                             public relations costs.




*
    Questioned cost is not includable in the base. Please see Note 10 of Appendix A for explanation.



                                                          16
                                                                      APPENDIX A



Costs Questioned   Description

Unallocable
                   CRDF organized several business meetings and conferences that in our
                   opinion were directly related to specific projects or activities under the
                   NSF cooperative agreement. Therefore, the costs for the activities should
                   have been charged as direct costs in their entirety in accordance with
                   OMB Circular A-122. According to A-122, the cost of activities
                   performed primarily as a service to members, clients, or the general public
                   when significant and necessary to the organization’s mission must be
                   treated as direct costs. Also, paragraph 29 of Attachment B of the Circular
                   stipulates that to the extent that costs associated with the conduct of
                   meetings and conferences are identifiable with a particular cost objective
                   (the NSF award), they should be charged direct to that objective. Below is
                   the list and description of costs questioned as unallocable to the indirect
                   cost pool.

$1,678             The questioned amount is the portion of catering costs for a luncheon at
                   the International AIDS conference in Toronto, Canada. The audit
                   disclosed that of the total catering cost of $3,356, CRDF charged half of
                   the expenses as direct and the other half as indirect. We questioned the
                   half that was charged as indirect expense.

$3,000             The questioned amount is for an International AIDS Conference Satellite
                   symposium. Our review disclosed that of the total cost of $4,000 for the
                   symposium, $1,000 was recorded as direct costs and the balance of $3,000
                   as indirect expense. We therefore questioned the balance as unallocable to
                   the indirect cost pool.

$2,037             The questioned amount is the Events department share of meetings and
                   conferences expenses in Amman, Jordan.

$4,994             The questioned indirect expense was for catering at a business meeting
                   and conference event in Ohio.

$4,661             The questioned costs are the total expenses for catering and table
                   decorations at an event during the XVI International AIDS conference in
                   Toronto, Canada.

$5,869             Questioned amount is the cost of meals to clients at an “Industry Event” at
                   the Cleveland Clinic Foundation.




                                            17
                                                                                          APPENDIX A


3. Dues & Subscriptions Expenses:

We questioned $8,365 of the proposed dues and subscriptions expenses as unallowable per OMB
Circular A-122. A breakdown of the questioned costs follows.


Costs Questioned             Description

Unallowable
$7,865                       The questioned amount is for the renewal of the VOCUS Public Relations
                             software, which we consider as unallowable. Based on CRDF’s own
                             description of the functionalities of the software, it appears CRDF uses the
                             web-based software to manage the way it communicates with the media
                             and the public to promote the organization. Since the software is used
                             primarily for public relations and marketing activities, the cost is
                             unallowable per OMB Circular A-122.

$500*                        The questioned amount is the United Airlines Red Carpet club annual
                             membership renewal fees for the CRDF CFO. Per the A-122, Attachment
                             B, costs of membership in any social or dinning club or organization is
                             unallowable. The United airlines Red Carpet club, in our opinion, falls
                             under the category of such organizations.


4. Marketing Expenses:

We questioned $17,211 of the proposed marketing, advertising and public relations expenses,
because they are unallowable ($14,211) or unallocable ($3,000) per OMB Circular A-122. A
breakdown and explanation of the questioned costs follows.

Costs Questioned             Description

Unallowable
$1,667                       The questioned amount is the portion of total flyer sponsorship costs of
                             $5,000 at an International AIDS conference that was recorded as
                             allowable indirect expense.

$1,950                       The questioned amount is the cost for exhibit space at the American
                             Association of Advance Science (AAAS) annual meeting which we
                             consider as advertising and public relations expenses.

$894                         The questioned amount is the cost of CRDF logo lapel pins recorded as
                             allowable program marketing expense. A logo lapel pin is a memorabilia
                             or promotional item and the costs are unallowable per A-122.


*
    Questioned cost is not includable in the base. Please see Note 10 of Appendix A for explanation.



                                                          18
                                                                                          APPENDIX A


Costs Questioned             Description

$5,125                       The questioned amount is the total cost for the design and construction of
                             a tradeshow booth recorded as allowable indirect program marketing and
                             consulting services costs.      Per A-122, tradeshow exhibits and
                             demonstrations are broadly targeted selling and marketing efforts and are
                             unallowable costs.

$4,575*                      The questioned amount is the cost for a farewell cocktail reception for the
                             former CRDF CEO that was booked as allowable marketing expense.
                             However, in our opinion, the event was an entertainment and amusement
                             activity which is unallowable per A-122.

Unallocable
$3,000                       The questioned amount is the portion of the CRDF cost charged as indirect
                             expense for the sponsorship of Nanotech 2006 Conference and
                             Tradeshow. Of the total cost of $7,000 for the event, $3,000 was charged
                             as indirect and the balance as direct expense. Since the event relates to the
                             NSF award, the total cost should have been charged as direct costs to the
                             award in accordance with the provisions of OMB Circular A-122.


5. Consulting Services:

We questioned $1,235 of the proposed consulting services costs. The questioned amount was for
the design and manufacture of 7ft. banners, which we consider as unallowable advertising and
public relations costs per A-122.


6. Travel:

We questioned $10,022 of the proposed travel costs as unallowable airfare expenses. The
questioned amount is the difference between first-class and coach airfares. Detailed descriptions
follow.

Costs Questioned             Description

Unallowable
$6,000*                      The questioned amount is the difference in cost between business class
                             and our estimated coach fares from Redmond, Oregon to Moscow, Russia.
                             The roundtrip business class fare was $9,359 versus our estimated coach
                             fare of $3,055. Questioned cost rounded down to $6000.

$1,500*                      The questioned amount is the difference between first class and estimated
                             coach roundtrip fares from San Jose, California to Dallas, Texas.
*
    Questioned cost is not includable in the base. Please see Note 10 of Appendix A for explanation.



                                                          19
                                                                                          APPENDIX A



Costs Questioned             Description

$1,522*                      The questioned amount is the difference between first class and estimated
                             coach roundtrip fares from Redmond, Oregon to Washington, DC.

$1,000*                      The questioned amount is the difference between first class and estimated
                             coach roundtrip fares from San Jose, California to Salt Lake City, Utah.


7. Miscellaneous:

We questioned $10,121* of the proposed miscellaneous expenses as unallowable entertainment
and amusement expenses. The questioned amount was the entertainment and alcohol cost for a
holiday dinner party on the Potomac River.


8. Fringe Benefits Allocation:

We questioned xxxxxxxxxx of the proposed fringe allocation due to the questioned base
administrative labor costs for Virginia xxxxxxxxxx xxxxxxxxxx.

9. Occupancy Allocation:

We questioned xxxxxxxxxx of the proposed occupancy allocation due to the questioned base
administrative labor costs for Virginia xxxxxxxxxx xxxxxxxxxx


10. Direct Costs excluded from Base:

Based on the costs questioned as explained above, CRDF understated the total direct cost
allocation base by $346,285. This amount is the portion of the total questioned costs that is
includable in the indirect cost base in order to bear their pro rata share of indirect costs. OMB
Circular A-122, Attachment A, Section B.3 stipulates that even though costs of certain activities
are unallowable as charges to Federal awards, they nonetheless must be treated as direct costs
(and included in the base) for purposes of determining indirect cost rates and be allocated their
share of the organization’s indirect costs if they represent activities which (1) include the salaries
of personnel, (2) occupy space, and (3) benefit from the organization’s indirect costs. A
breakdown of the questioned unallowable and unallocable costs includable in the base is as
follows:




*
    Questioned cost is not includable in the base. Please see Note 10 of Appendix A for explanation.



                                                          20
                                                                    APPENDIX A

Table 2: Unallowable and Unallocable Costs Includable in the Base

     Cost Element               Questioned Amount
     Administrative Labor             Xxxxxxxxxx
     Allocated Fringe Benefits        Xxxxxxxxxx
     Allocated occupancy Costs        Xxxxxxxxxx
     Business Meetings & Events       Xxxxxxxxxx
     Marketing                        Xxxxxxxxxx
     Dues/Subscription                Xxxxxxxxxx
     Consulting                       Xxxxxxxxxx
     Total                            $ 346,285




                                             21
                                                                         APPENDIX B



               CIVILIAN RESEARCH & DEVELOPMENT FOUNDATION
                National Science Foundation Award Number OISE – 9531011
                     Audit of Incurred Costs and Administrative Controls
                            January 1, 2006 – December 31, 2006

                             Schedule of Questioned Direct Costs

                                     Claimed            Audit       Adjusted
    Cost Category                     Costs           Adjustment      Cost         Notes

    Business Meetings           xxxxxxxxxx                 5,563     #VALUE!             1
    Program Marketing                                      1,667                         2
    Total                        $           -        $    7,230


CRDF charged $7,230 of unallowable costs directly to the NSF award. Below is explanation of
the questioned direct costs.

1. Business Meetings

The questioned Business Meeting cost consists of $1,938 for alcohol, $2,935 for food at a
baseball game, and $690 for employee farewell party. These expenses are unallowable alcohol
or entertainment expenses.

2. Program Marketing

The questioned cost relates to cost of marketing flyer sponsorship (total cost was $5,000 and it
was split three ways - $1,667 to NSF award, $1,667 to indirect (we questioned the indirect
portion separately under the indirect cost testing) and $1,667 to CRDF’s non-government funds.
The direct cost of $1,667 charged to NSF award is considered unallowable marketing or public
relations expense per OMB Circular A-122.




                                                 22
